 Office of Inspector General
      Audit Report

FAA FACES SIGNIFICANT OBSTACLES IN
ADVANCING THE IMPLEMENTATION AND
   USE OF PERFORMANCE-BASED
      NAVIGATION PROCEDURES
       Federal Aviation Administration
        Report Number: AV-2014-057
         Date Issued: June 17, 2014
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Faces Significant Obstacles in                                        Date:    June 17, 2014
           Advancing the Implementation and Use of
           Performance-Based Navigation Procedures
           Federal Aviation Administration
           Report No. AV-2014-057

  From:    Matthew E. Hampton                                                             Reply to
                                                                                          Attn. of:   JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           Improving the efficiency of the National Airspace System (NAS) remains a key
           priority for the Federal Aviation Administration (FAA), with air travel expected to
           increase steadily over the next 20 years. To enhance capacity and reduce delays at
           congested airports, FAA is implementing Performance-Based Navigation (PBN)
           flight procedures, such as Area Navigation (RNAV) 1 and Required Navigation
           Performance (RNP). 2 RNAV and RNP procedures are key building blocks for the
           Next Generation Air Transportation System (NextGen) and can provide significant
           near-term benefits such as more direct flight paths and curved approaches to
           runways, improved on-time aircraft arrival rates, greater fuel savings, and reduced
           aircraft noise.

           To date, FAA has implemented over 1,000 RNAV and RNP procedures, 3 but
           airline representatives have expressed concerns with the procedures’ benefits and
           timeliness. In response to a September 2009 Federal Government-industry task
           force report, 4 FAA conducted a study of its internal processes for developing and
           implementing flight procedures. The study, known as the NAV Lean Project, was
           published in September 2010 and established 21 recommendations to improve and
           streamline FAA’s policies and processes for developing and implementing flight

           1
             RNAV is a method of navigation in which aircraft use satellite signals to fly any desired flight path without the
           limitations imposed by ground-based navigation systems.
           2
             RNP is a form of RNAV that adds monitoring and alerting capabilities for pilots, thereby allowing aircraft to fly
           more precise flight paths.
           3
             This number includes RNAV Standard Instrument Departures, RNAV Standard Terminal Arrival Routes, and RNP
           approaches.
           4
             RTCA, “NextGen Mid-Term Implementation Task Force Report,” Sept. 9, 2009.
                                                                                                                2

procedures. FAA committed to improving the process and reported in June 2011
that it would take an estimated 5 years—until the year 2016 5—to implement all
21 recommendations.

Concerned with FAA’s efforts in this area, the Chairman of the House Committee
on Transportation and Infrastructure and the Chairman and Ranking Member of
the Subcommittee on Aviation requested that we assess the Agency’s progress in
providing “high-value” PBN procedures—those that provide measurable benefits
to airspace users such as shorter flight paths, improved on-time aircraft arrival
rates, and greater fuel savings. The Chairmen also requested that we assess FAA’s
progress with streamlining its processes for flight procedure development.
Accordingly, we assessed (1) FAA’s progress in providing high-value PBN routes
and procedures that encourage widespread use, and (2) the degree to which the
NAV Lean Project is meeting the demand for improved flight procedure
development processes.

We conducted this review in accordance with generally accepted Government
auditing standards. Exhibit A details our scope and methodology, and exhibit B
lists the specific organizations we visited or contacted.

RESULTS IN BRIEF
FAA has deployed PBN procedures and has key projects underway, including
adding new procedures at 13 major metropolitan areas, but preliminary data 6 on
high-value RNP procedures show that use is low, particularly at busy airports such
as those in the New York City area. For example, at 14 major airports that have
RNP procedures with curved runway approaches, 7 only about 2 percent of eligible
flights use these procedures. Several obstacles hinder FAA’s efforts to increase
implementation and use of PBN procedures, including outdated controller policies
and PBN procedures, a lengthy flight procedure development process, the lack of
standard training for pilots and controllers, and the lack of automated controller
tools to manage and sequence aircraft with differing equipment and capabilities.
FAA has not overcome these obstacles or quantified user benefits of new
procedures. As a result, airspace users will likely remain reluctant to equip with
the avionics needed to advance new procedures.

Although NAV Lean was launched 4 years ago, it has not met stakeholder demand
for improved flight procedure development processes. FAA has completed 9 of the
5
  FAA later changed the NAV Lean schedule to complete this effort by September 2015.
6
  FAA tasked MITRE with obtaining PBN usage data. MITRE Corporation manages FAA’s federally funded research
and development center.
7
  The 14 major airports are Baltimore-Washington International, Chicago Midway, Denver International, Fort
Lauderdale International, Hartsfield-Jackson Atlanta International, JFK International and LaGuardia in New York,
Memphis, Minneapolis/St. Paul International, Newark Liberty, San Francisco, Seattle-Tacoma, and Dulles and Reagan
National in Washington, DC.
                                                                                 3

21 NAV Lean recommendations to streamline the flight procedure development
process and is making progress on the remaining ones. However, the Agency does
not expect to implement all 21 recommendations until September 2015, which is
longer than desired by stakeholders. In addition, the completed Nav Lean
initiatives are those that are less complex and costly, such as issuing interim
guidance for environmental reviews. FAA had yet to define requirements or
develop schedules for 11 of its most costly and complex improvements, such as
creating and providing users access to a single set of databases for procedure
development. Ultimately, industry will not get the full benefits of NAV Lean—to
decrease the time it takes to implement new procedures by more than 40 percent—
until all 21 recommendations are implemented.

We are making recommendations to help FAA mitigate barriers to PBN
implementation and expedite the development of new procedures.

BACKGROUND
One of the most important components of NextGen—especially for achieving
near-term benefits—is the implementation of new routes and procedures that rely
on satellite-based navigation and on-board aircraft equipment to provide greater
navigation precision and accuracy:

• RNAV allows pilots to use a combination of satellite signals and other systems
  on-board aircraft to fly any desired flight path by reducing the limitations
  imposed by ground-based navigation systems.

• RNP is a more advanced form of RNAV as it adds monitoring capabilities to
  the cockpit to alert the pilot when the aircraft cannot meet specified navigation
  performance requirements. Key features of RNP are the ability to fly precise,
  curved approaches, provide predictable flight paths, and provide improved
  airport access.

Traditionally, aircraft have been required to fly routes between ground-based
navigational aids to maintain required navigation accuracy of on-board systems.
RNAV and RNP can increase airspace efficiency by providing more direct paths
(see figure 1), thereby improving airport arrival rates, enhancing controller
productivity, saving fuel, and reducing aircraft noise.
                                                                                 4

Figure 1. Conventional, RNAV, and RNP Navigational Methods




Source: OIG based on FAA data.

As part of the RNAV implementation strategy, FAA is deploying optimized
descent and climb profiles for smoother flight paths that use less fuel than
conventional “step-down” approaches, which require aircraft to fly a long series of
progressive descents to get closer to the runway (see figure 2).
                                                                                                                       5

Figure 2. Comparison of a Conventional “Step-Down” Approach
Versus an Optimized Profile Descent




Source: OIG based on FAA data.

According to FAA, any new flight procedure must contain sufficient detail to
allow a pilot to navigate safely within the constraints of the airspace. Therefore,
before FAA implements a flight procedure, such as a shorter arrival path to a
particular airport, the procedure must go through a lengthy FAA process for
design, development, and approval. The process also includes safety management,
operational approval, environmental review, and coordination of operational
requirements such as aircraft speed and altitude.

FAA HAS PROVIDED SOME HIGH-VALUE PROCEDURES, BUT
OBSTACLES LIMIT WIDESPREAD IMPLEMENTATION AND USE
While FAA has key PBN projects underway that focus on implementing high-
value procedures, 8 the projects have experienced delays, and benefits remain
uncertain. In addition, preliminary data show that use of the high-value PBN
procedures that have been deployed is low, particularly at high-density airports.
Limited use is due in part to outdated policies and procedures and a lack of
training and air traffic automation.

Key PBN Projects Are Underway, but Implementation Is Limited Due
to Delays and Uncertain Benefits
FAA is working to implement two key PBN initiatives—metroplex and Greener
Skies. However, according to FAA, both initiatives have experienced delays due
to several factors, such as procedure design issues and work stoppages due to
furloughs and the Government shutdown, and have not realized their intended
benefits of optimizing the use of PBN procedures.

8
  High-value PBN routes and procedures are those that provide measurable benefits to airspace users, such as shorter
flight paths improved on-time aircraft arrival rates, and greater fuel savings.
                                                                                                                  6

In response to a Government-industry task force recommendation,9 in 2010 FAA
launched its metroplex initiative—a 7-year effort to improve the flow of traffic at
congested airports in 13 major metropolitan areas. As of April 2014, FAA was in
the study or design and implementation phase at 10 of the 13 metroplex locations.
However, to date, Houston is the only metroplex site that FAA has completed,
with new flight procedures launched in May 2014. Delays at metroplex sites range
from 2 months to over 1 year. Figure 3 shows the implementation status of each of
the 13 sites. 

Figure 3. Metroplex Implementation Sites and Their Status, as of April
2014




                                                                                                                    
Source: OIG based on FAA data
Note: FAA’s Metroplex program includes study teams and design and implementation teams. Study teams provide a
front-end strategic look at each major metroplex. Using study team results, design and implementation teams provide a
systematic approach to the design, evaluation, and implementation of PBN-optimized airspace and procedures.

To accelerate implementation, FAA limited the metroplex initiative to airspace
redesign and procedures that can be implemented for the majority of NAS users
without (1) additional equipage of aircraft, (2) improvements to automation
systems for controllers, and (3) extensive environmental reviews. FAA took this
approach because most aircraft flying in the NAS today are equipped with RNAV.



9
  In September 2009, a Government-industry task force recommended that FAA implement more efficient RNAV and
RNP procedures and accelerate deployment of new flight procedures by resolving longstanding approval and
certification issues.
                                                                                                                         7

However, this approach limits benefits for aircraft that are already equipped with
more advanced avionics and capable of flying RNP. According to MITRE, about
50 percent of all active Part 121 aircraft and over 70 percent of major airlines’
aircraft are equipped with RNP. These airspace users would like more, not fewer,
advanced PBN procedures at metroplex sites—especially procedures that allow for
curved rather than linear runway approaches, which are more precise and efficient.
FAA study teams have proposed only a limited number of RNP procedures at
metroplex locations. The limited number of RNP procedures is concerning to
airlines that have made, or are planning to make, significant investments to equip
their aircraft with RNP capabilities.

As we reported in 2012, 10 industry representatives also expressed concerns that
FAA did not integrate other related initiatives, including improving airport surface
operations such as aircraft operations on taxiways and at gates, further limiting
metroplex benefits. FAA has not developed a plan with milestones for a more
integrated metroplex approach as we recommended and as envisioned by airspace
users. 11

According to FAA, several factors have hindered its efforts to fully implement the
metroplex initiative, including sequestration, 12 delays due to implementing the
Agency’s En Route Automation Modernization 13 (ERAM) system, and the
challenges of working with air carriers. For example, FAA has delayed the
completion of three sites—Cleveland/Detroit, Boston, and Memphis—from 2016
to 2017 due to resource issues and has stopped work at three locations—Atlanta,
Washington DC, and Florida—due to ERAM deployment.

FAA’s “Greener Skies Over Seattle” initiative 14 has experienced similar delays. If
implemented as envisioned, the project will allow both RNP-equipped aircraft and
less advanced aircraft to land concurrently in Seattle—using, respectively, curved
and straight-in paths. Dual approaches would reduce flight miles and fuel burn for
equipped aircraft, as well as increase airspace efficiency. The first phase of the
Greener Skies initiative focused on a new set of PBN procedures, some of which
were implemented in the Seattle metroplex in March 2013 after 4 years of
development. Publication of the remaining procedures was delayed until August

10
   Challenges With Implementing Near-Term NextGen Capabilities at Congested Airports Could Delay Benefits (OIG
Report No. AV-2012-167), Aug. 1, 2012.
11
   A September 2013 NAC report on NextGen priorities reiterated the need for a more integrated approach to
implementing NextGen initiatives.
12
   As a result of the Budget Control Act of 2011, automatic spending cuts across the Government became mandatory.
13
   ERAM is a multibillion dollar system for processing flight data at facilities that manage high-altitude traffic typically
above 10,000 feet where aircraft reach their cruising altitudes and fly as direct a route as possible between their
departure and destination points.
14
   Greener Skies is a collaborative project between FAA, airlines, the Port of Seattle, and Boeing to develop new PBN
procedures at the Seattle-Tacoma International Airport (Sea-Tac) and take advantage of equipment onboard today’s
aircraft. The project plans to add 27 new procedures to expand the use of Optimized Profile Descents, RNAV, and
RNP.
                                                                                                                     8

2013 because they did not account for differences in airlines’ onboard flight
systems, preventing some airlines from being able to use the procedures. The
Agency also has a second phase of ongoing safety studies to establish new air
traffic control separation standards, which will allow greater use of RNP
approaches not only in Seattle but at all airports. FAA plans to apply lessons
learned from its Greener Skies initiative to effectively implement PBN NAS-wide
and reduce the development timeframe at other locations. However, it remains to
be seen whether this model can be applied NAS-wide.

Preliminary FAA Data Show Moderate Use of PBN Procedures at
Some Airports, but NAS-Wide Use Is Low
Although RNAV and RNP procedures have the potential to bring significant
benefits to airspace users, such as greater fuel savings, the procedures can only
provide these benefits if aircraft operators actually use them. Preliminary data
show RNP overall use is low.
Since 2009, we and many airspace users have expressed concern with FAA’s
inability to track the use of PBN procedures and determine benefits. 15 In
December 2010, we recommended that FAA perform cost-benefit analyses in
close coordination with stakeholders before and after implementing RNP
procedures so that consensus could be reached regarding the potential and actual
benefits of the procedures. 16 Likewise, airspace users have repeatedly emphasized
the need for quality flight procedures that have measurable benefits.
In response, FAA tasked the MITRE Corporation 17 with developing a
computerized PBN Dashboard that will allow FAA to readily monitor and track
PBN use and assess PBN benefits before and after implementation. In May 2013,
FAA posted the first public PBN Dashboard usage data for calendar year 2012 on
the Agency’s Web site. MITRE has since been working to provide more detail on
procedures and performance metrics, refining data, and increasing analytical
functionality. 18 These data provide a valuable opportunity to determine how often
and what kind of procedures are in use across the NAS.
FAA has implemented over 100 RNP approach procedures at 24 of the “Core 30”
airports—generally those that have the most air traffic. 19 As of August 2013, 14
had curved RNP approaches—which, unlike straight-in RNP approaches, can be
15
   Challenges in Implementing Performance-Based Navigation in the U.S. Air Transportation System (OIG Testimony
No. CC-2009-086), July 29, 2009.
16
   FAA Needs To Implement More Efficient Performance-Based Navigation Procedures and Clarify the Role of Third
Parties (OIG Report No. AV-2011-025), Dec. 10, 2010.
17
   MITRE is a not-for-profit company that operates multiple federally funded research and development centers.
18
   In addition to the public dashboard, MITRE developed two additional PBN dashboards internal to FAA that provide
the more detailed procedure information, performance metrics, and analytical capabilities.
19
   FAA defines the Core 30 airports as the 29 large hub airports and Memphis International Airport. For the purposes of
our analyses, we focused on the Core 30 airports because these are the key airports FAA is tracking and many of these
are metroplex locations.
                                                                                                                     9

distinguished from existing flight procedures and measured. For these 14 core
airports, only about 2 percent of eligible 20 airline flights have used the curved
RNP approach (see table 1). For all airports tracked by the PBN Dashboard, only
about 4 percent of eligible flights have used RNP procedures.

Table 1. Percentage of Eligible Flights That Used Curved RNP
Approaches at Core Airports (September 2012 to August 2013)
Core 30 Airports With Curved                           Eligible      Executed RNP                 Percentage of
RNP Approaches                                        for RNP                              Eligible Flights That
                                                                                                 Executed RNP

Baltimore Washington International                      24,461                     188                            1%

Chicago Midway International                             1,614                     502                          31%

Denver International                                    18,681                       62                           0%

Fort Lauderdale International                            3,240                        3                           0%

Hartsfield-Jackson Atlanta International                 6,510                       37                           1%

John F. Kennedy International                           29,907                     307                            1%

LaGuardia International                                 15,950                       76                           1%

Memphis International                                          9                      0                           0%

Minneapolis/St. Paul International                          310                       0                           0%

Newark Liberty International                             3,112                       10                           0%

Reagan National                                          8,908                   1,395                          16%

San Francisco International                             11,212                       23                           0%

Seattle-Tacoma International                            25,601                     289                            1%

Washington Dulles International                          2,098                        0                           0%

Core 30 Total                                         151,613                    2,892                            2%

NAS Wide Total                                        325,324                  12,120                             4%

Source: OIG based on FAA data

Use of RNAV arrival and departure procedures is much higher than the use of
RNP, in part because more aircraft are equipped to use RNAV. At the Core 30
airports, 26 have at least 1 arrival procedure, and 23 have at least 1 departure
procedure. Overall use of arrival procedures is about 51 percent, ranging from a
high of 86 percent at Phoenix to less than 1 percent at Los Angeles; overall use of


20
   Eligible airline flights as defined by MITRE are ones in which (1) the aircraft is estimated to be RNP capable based
on the airline and aircraft type using a database with proprietary data and (2) the flight is in a position to start the
procedure.
                                                                                                                 10

departure procedures is about 30 percent, ranging from 79 percent at Atlanta to
1 percent at Phoenix. 21

FAA Has Not Resolved Key Obstacles To Implementing PBN
Procedures
According to FAA and MITRE representatives, several complex issues contribute
to low use of PBN procedures, including mixed aircraft equipage, outdated air
traffic controller policies, insufficient controller training, a lack of controller
automation tools, and weather conditions. Representatives from Airlines for
America (A4A) 22—the largest trade association that represents major air
carriers—identified similar impediments to PBN implementation.

A March 2012 FAA report detailed the results of its study on such obstacles to
PBN use. 23 For example:

• Outdated Policies and Procedures—Many of FAA’s existing rules and
  procedures do not accommodate the capabilities of advanced navigation
  equipment onboard aircraft. Notably, FAA’s air traffic controller handbook 24
  has not been updated to provide procedures for controllers to safely manage
  RNAV/RNP operations in a mixed-equipage environment. FAA formed a
  Steering Committee in July 2012 to complete a multi-phased approach to
  revise the handbook. FAA expects to complete most of its planned handbook
  changes by 2015, but will not complete one 25 until 2017.

• Insufficient Training—FAA’s NextGen-related training often consists of
  briefings rather than comprehensive training on RNAV and RNP. Because of
  the lack of awareness and training, controllers are reluctant to clear pilots to
  use PBN procedures. According to National Air Traffic Controller Association
  officials, training on new RNAV and RNP procedures should include simulator
  training to be effective.

• Lack of Air Traffic Automation—FAA remains in the beginning stages of
  developing automated decision-making tools to help controllers manage air
  carriers that operate with differing capabilities and procedures and optimize the
  full use of the procedures. Controller automation tools, such as Traffic



21
   The RNAV data represents the time period of January 2012 to April 2013.
22
   According to A4A, its members and affiliates transport more than 90 percent of U.S. airline passenger and cargo
traffic.
23
   FAA, Obstacles to Performance Based Navigation Implementation, Mar, 1, 2012.
24
   FAA Order JO 7110.65U prescribes air traffic control procedures and phraseology for use by persons providing air
traffic control services.
25
   The planned change scheduled for 2017 relates to departure separation for parallel runways.
                                                                                                                   11

     Management Advisor (TMA), 26 can enhance and maximize the effectiveness
     and use of new PBN procedures, particularly when controllers are managing
     aircraft with different types of equipment. While TMA is operational at all
     20 air route traffic control centers, select terminal approach control facilities,
     and airport control towers, 27 the extent to which these facilities use TMA
     varies due to a lack of national controller training and local operating
     procedures.

As we reported in 2012, removing these obstacles is critical to securing industry
support and continued investment in new systems. Representatives of A4A and
7 of their 11 member carriers we spoke with were all concerned about FAA’s
progress in implementing PBN procedures. Industry representatives stated that
slow progress has affected the airlines’ pace of equipping with advanced avionics
and subsequently slowed the return on investment for those carriers that have
equipped. They further stated that FAA needs to demonstrate the benefits of new
procedures to help make the business case for equipage.

To address these concerns, FAA assembled a PBN Action Team tasked with
developing specific remedies and incremental action steps. Additionally, FAA
tasked RTCA to evaluate the potential obstacles to PBN use and provide specific
remedies and incremental action steps to remove them in the near term. RTCA’s
results, published in June 2013, 28 are consistent with our findings. Specifically,
RTCA identified outdated air traffic policies, insufficient training, and lack of
controller automation tools as three of its top five obstacles to PBN
implementation and use. 29 According to an FAA official, the Agency has shifted
its efforts from the PBN Action Team’s work to responding to the RTCA reports
on obstacles to PBN. 30 However, FAA has not determined how and when the
Agency plans to follow up on its internal report on these obstacles.




26
   Traffic Management Advisor (TMA) is a comprehensive automated tool for planning efficient flight trajectories.
TMA has the ability to sequence and schedule aircraft to maximize airport and terminal airspace capabilities without
compromising safety.
27
   FAA is implementing a new system, called the Time-Based Flow Management (TBFM) system.
28
   RTCA, Recommendation for Increased Utilization of Performance Based Navigation (PBN) in the National Airspace
System (NAS), June 2013.
29
   The other two are (1) procedure design (that is, the need to define the problem being solved and the operational goal
of PBN procedures) and (2) the lengthy environmental review process.
30
   RTCA issued a second report in response to FAA’s request to examine industry barriers to PBN. RTCA, Addendum
to Recommendations for Increased Utilization of Performance Based Navigation (PBN) in the National Airspace
System (NAS) – Industry Barriers, February 2014.
                                                                                              12


FAA’S PROGRESS IN IMPLEMENTING NAV LEAN
RECOMMENDATIONS HAS NOT MET STAKEHOLDERS’
EXPECTATIONS
While FAA has implemented some NAV Lean recommendations, the full benefits
of streamlined instrument flight procedure development processes will not be
realized until the project’s completion, which is currently scheduled for September
2015. Consequently, FAA has not yet met airspace users’ demand for a
streamlined flight procedures process.

FAA’s NAV Lean initiative aims to address problems in FAA’s procedure
development, such as a lack of an expedited process for approving minor
procedure revisions, inconsistent interpretation of environmental policies and
guidance, and data discrepancies across diverse databases. FAA originally planned
to fully implement all 21 NAV Lean recommendations by 2016 but expedited its
timeline to 2015. However, to date, FAA has completed just nine
recommendations, with only about 1 year remaining. The nine completed
recommendations represent new policy and process changes for areas pertaining to
procedure amendments, life cycle development, environmental concerns, safety,
criteria, and database standardization, as shown in table 2. (See exhibit C for a full
list of the NAV Lean recommendations and their expected completion dates.)

Table 2. FAA Actions Completed To Address NAV Lean
Recommendations
Completed NAV Lean                    FAA Actions                                 Date
Recommendations                                                                   Completed
Establish process to allow      Published revised guidance identifying            9/27/2013
abbreviated amendments for RNAV requirements and processes for
arrivals (Recommendation 4).    abbreviated amendments.
Establish standardized databases      Published planning documents identifying    6/28/2013
with custodianship and data           database standardization processes and
stewards to maintain data integrity   key stakeholders responsible for data
(Recommendation 5).                   ownership. FAA does not plan to
                                      implement these databases until
                                      September 2015.
Standardize data precision,           Revised guidance to assign responsibility   1/9/2014
resolution, and rounding values.      to the Shared Service Organization for
(Recommendation 9).                   establishing and maintaining the FAA
                                      Enterprise Data Architecture.
Issue interim guidance for use of     Issued interim guidance for streamlined     6/1/2011
focused approach to environmental     environmental reviews which provides a
reviews (Recommendation 11).          quicker, more efficient process.
Modify guidance to define             Modified two guidance documents             4/3/2014
responsible Federal officials for     clarifying the responsibility of Federal
environmental work                    officials for environmental work.
(Recommendation 14).
                                                                                              13

Completed NAV Lean                     FAA Actions                               Date
Recommendations                                                                  Completed
Establish U.S. Instrument Flight       Established US-IFPP as the focal point for 1/28/2013
Procedures Panel (US-IFPP) as          procedure design criteria changes—such
focal point for criteria changes and   as airspeed and bank angle—to improve
new requests (Recommendation           coordination across FAA and with airspace
15).                                   users.
Publish guidance on a standardized Issued new guidance on a standardized         2/7/2014
Safety Management System (SMS) SMS process for implementing instrument
Process for implementing           flight procedures.
instrument flight procedures
(Recommendation 16).
Issue interim guidance for Safety      Issued safety review guidance for PBN     11/26/2012
Risk Management compliance for         procedures. (Conventional procedures
procedure development and              already have guidance in place.)
implementation (Recommendation
17).
Amend FAA guidance to define the Revised guidance that defined the life cycle 1/9/2014
life cycle policy for procedure    policy for procedure development.
development, including items such
as environmental reviews and minor
amendments (Recommendation
19).
Source: OIG analysis of FAA data

FAA has begun work on 11 of the 12 remaining recommendations and plans to
complete all 12 by September 2015. However, FAA faces significant challenges in
meeting this deadline. According to FAA documents, it takes on average 2 years
to publish a new procedure. While FAA plans to decrease this time by more than
40 percent—citing strong support from senior Agency officials—FAA officials
acknowledge that completion of most recommendations will require integrating
efforts from various Agency lines of business and keeping the program funded to
meet all deadlines. Specific areas of concern include the following:
• Environmental Reviews—FAA has already experienced nearly a year delay
  with ongoing efforts to standardize management environmental specialist
  training to ensure consistent compliance for all flight procedures. According to
  FAA, a shortage of funds needed to initiate a contract has delayed this effort.
• Defining Requirements—At the time of our audit, FAA had not defined
  requirements, schedules, or both for 11 NAV Lean recommendations,
  increasing the risk of further delays. For example, the initiative to consolidate
  databases relies on multiple organizations and contractors. However, because of
  the complexity of this project, FAA did not have the ability to manage the
  technical details—requirements, development, and verification—at the onset of
  the project. In addition, FAA had yet to define requirements for providing a
  Web-based system for flight procedures that airlines and FAA can access.
                                                                                14

  Conceptually, the system will capture carriers’ requests for flight procedures,
  help ensure new flight procedure processes are followed, and enable
  stakeholders and managers to track the progress of each request. According to
  FAA, the Agency has made recent progress in defining the requirements and
  schedules for most of these remaining 11 recommendations, but has not yet
  defined all requirements and schedules.

• Uncertain Costs—FAA originally estimated NAV Lean would cost
  $19 million. However, FAA program officials said that those estimates were
  unreliable because the Agency was still in the process of defining the technical
  requirements, schedules, and costs for each recommendation. FAA has since
  requested $52 million for NAV Lean for fiscal years 2013 to 2015, but FAA
  program officials are uncertain about the level of funding they will receive.
  NAV Lean representatives we spoke with said that funding is a critical issue
  that will need to be addressed if the program is expected to be completed within
  the 2015 timeframe.

• Undetermined Benefits—FAA has not established a process to continually
  measure the benefits of its NAV Lean initiatives to ensure improvements
  achieve desired outcomes. The NAV Lean report stated that implementing all
  21 recommendations would reduce the processing time for new flight
  procedures by more than 40 percent. While FAA has begun to measure the time
  reduction for some of its NAV Lean initiatives, it has yet to develop a
  comprehensive methodology to measure the impact on the overall processing
  time. Some recommendations will only impact certain types of flight
  procedures. For example, the Agency established a shortened process for
  revising flight procedures capable of reducing the time from 2 years to just over
  100 days, but the process only pertains to RNAV arrivals and requires
  additional work to automate. In addition, FAA plans to implement a quality
  assurance program that eliminates redundant data entry and procedure design
  work; however, this program will be available only for RNAV arrivals.

CONCLUSION
PBN procedures such as RNAV and RNP are key to achieving NextGen’s
successful implementation and realizing its expected benefits—to enhance safety,
reduce delays, save fuel, and minimize aviation’s environmental impact, while
increasing NAS capacity. FAA recognizes the risks involved in executing a
complex and highly integrated project such as NAV Lean and is modifying plans
to mitigate those risks on a continuous basis. However, until FAA overcomes the
many implementation barriers and streamlines new flight procedures, the aviation
industry will likely remain hesitant to equip with new avionics.
                                                                              15


RECOMMENDATIONS
To help mitigate barriers to PBN implementation and expedite the development of
new procedures, we recommend that FAA:

1. Complete an action plan to address the Agency’s report on “Obstacles to
   Performance Based Navigation Implementation” and develop milestones for
   when these solutions can be implemented.

2. Establish firm requirements and schedules for all NAV Lean initiatives that
   will provide a basis and justification for future funding requests.

3. Establish a process to measure the benefits of the NAV Lean initiatives on an
   ongoing basis to determine whether NAV Lean is achieving the desired
   outcomes.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on May 1, 2014. The Agency did not
provide us with a written response to the report or our recommendations.
Throughout the review, we discussed our findings and proposed recommendations
with FAA representatives. Where appropriate, we incorporated FAA’s comments
and input received during our meetings with the Agency. However, until we
receive the Agency’s written response, our recommendations will remain open and
unresolved.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, a written
response to this report and our recommendations is required. If you concur with
the findings and recommendations, please indicate the specific action taken or
planned for each recommendation and the target date for completion. If you do not
concur, please provide your rationale. You may provide alternative courses of
action that you believe would resolve the issues presented in this report. Please
provide your written response within 30 calendar days.
                                                                            16

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Koch, Program Director, at (404) 562-3770.

                                      #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                17


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit between May 2012 and May 2014 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. Our audit objectives were to assess
(1) FAA’s progress in providing high-value PBN routes and procedures, and
(2) the degree to which the NAV Lean Project meets demand for improved flight
procedure development processes.

To assess FAA’s progress in providing high-value PBN procedures, we analyzed
MITRE’s PBN usage data used in the PBN Dashboard to determine how often and
where PBN procedures are used. Our review of high-value PBN focused on
RNAV arrival and departure procedures and RNP approach procedures. To
evaluate usage, we analyzed data we obtained from MITRE’s dashboard system
for the time period January 2012 to April 2013 and from September 2012 to
August 2013. We computed the percentage of flights that were equipped and flew
RNAV arrival and departure procedures by dividing the number of flights that
flew at least 30 percent of a route 31 using an RNAV departure/arrival procedure by
the total number of flights for every departure/arrival airport that had RNAV
departure/arrival procedures. We computed the percentage of flights that were
equipped and flew RNP approaches by dividing the number of flights that flew the
RNP path by the total number of flights that were equipped to fly RNP and arrived
at the airport close to where the RNP approach begins. 32

We reviewed FAA’s draft PBN report to Congress in response to Section 213 of
the FAA Modernization and Reform Act of 2012. We reviewed FAA databases
containing information on procedures FAA had developed or is planning to
develop. Further, we met with representatives for Airlines for America, the
National Business Aviation Association, the Regional Airline Association, and
individual airlines to determine their views on FAA’s progress with providing
high-value PBN procedures and the extent to which they are using the procedures.
We also attended NAC meetings to get updates on progress and industry’s
perspective on FAA programs. We identified the barriers to implementing and
using high-value procedures by reviewing FAA’s March 2012 report, Obstacles to
Performance Based Navigation Implementation; the NAC’s June 2013 report on
Recommendations for Increased Utilization of PBN in the NAS; our previous
work; and interviews with airlines and FAA staff. Finally, we examined FAA
programs seeking to implement high-value PBN procedures, such as Metroplex
31
     MITRE and FAA determined the 30 percent threshold.
32
     MITRE defined RNP eligible flights.


Exhibit A. Scope and Methodology
                                                                                   18

and the Greener Skies Over Seattle project. To conduct that work we met with
FAA headquarters and field officials, air traffic controllers involved in the
projects, and lead carriers at those airports including Atlanta, Seattle, Houston, and
Dallas. We also reviewed Metroplex Study Team Reports and other
documentation.

To assess the degree to which the NAV Lean Project is meeting the demand for
streamlined flight procedure production process, we analyzed the actions taken to
address the NAV Lean recommendations, including analyzing proposed
milestones, and project tracking documentation. To determine what the project
was expected to accomplish, by when, and for how much we reviewed the
September 2010 Navigation Procedures Project Final Report, the June 2011
Navigation Procedures Implementation Plan, and the 2013 NAS Lifecycle
Planning Project Level Agreement. We also met with some of the original project
participants to get a better understanding of their intent and whether the current
implementation would accomplish the original goals. To determine the progress of
FAA’s streamlining efforts, we attended NAV Lean Quarterly Program Reviews
and reviewed numerous project tracking documents. We met with the NAV Lean
program manager and staff to learn about the challenges facing the program and
mitigation strategies being employed to overcome them. We also met with airline
and FAA program offices to learn what their expectations were for the project and
determine whether it would provide improvements.

The scope of work on internal controls was limited to gaining an understanding of
the PBN usage data that was published by FAA and MITRE and how FAA is
tracking implementation of the NAV Lean recommendations. MITRE is
continually improving the data collection for the PBN Dashboard, and FAA
conducted beta-testing on the data it received from MITRE. For NAV Lean, FAA
produced an implementation plan for the recommendations and created a program
manager position with staff to track and implement the recommendations. The
program manager put into place multiple internal controls, including a program
tracking tool, quarterly review meetings, identifying program risks, and
mitigations for those risks. No significant deficiencies were found during our
examination of these controls.




Exhibit A. Scope and Methodology
                                                                     19


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Headquarters, Washington DC
   •   Air Traffic Organization
          o PBN Policy and Support Group
          o Mission Support Services
   • MITRE Corporation, McLean, VA


FAA Field Facilities
   •   Atlanta Terminal Radar Approach Control, Peachtree City, GA
   • Central Service Center, Fort Worth, TX
   • FAA Northwest Mountain Regional Office, Renton, WA
   • FAA Southern Regional Office, College Park, GA
   • FAA Western Service Center, Renton, WA
   • Fort Worth Air Route Traffic Control Center, Fort Worth, TX
   • Houston Air Route Traffic Control Center, Houston, TX
   • Houston Terminal Radar Approach Control, Houston, TX
   • Mike Monroney Aeronautical Center, Oklahoma City, OK
          o Flight Inspection Services
          o Aeronautical Navigation Products
          o Flight Standards Service
   • Seattle Air Route Traffic Control Center, Auburn, WA
   • Seattle Terminal Radar Approach Control, Burien, WA
   • United Certificate Management Office, Houston, TX




Exhibit B. Organizations Visited or Contacted
                                                                       20

Aviation Stakeholders
  •   Airlines for America (A4A), Washington, DC
  • Alaska Airlines, Seattle, WA
  • American Airlines, Fort Worth, TX
  • Delta Airlines, Atlanta, GA
  • Communication Navigation Surveillance (CNS) Taskforce
  • Federal Express, Memphis, TN
  • GE Aviation PBN Services, Renton, WA
  • National Air Traffic Controllers Association (NATCA), Washington, DC
  • National Business Aviation Association (NBAA), Washington, DC
  • NextGen Advisory Committee (NAC)
  • Port of Seattle, Seattle, WA
  • Regional Airline Association (RAA), Washington, DC
  • RTCA Inc., Washington, DC
  • Southwest Airlines, Dallas, TX
  • United Airlines, Chicago, IL
  • United Parcel Service, Atlanta, GA




Exhibit B. Organizations Visited or Contacted
                                                                                             21


EXHIBIT C. NAV LEAN ISSUE AREAS AND RECOMMENDATIONS
Recommendation by Issue Area                                                         Estimated
                                                                                     Completion
Minor Amendments of instrument Flight Procedures
 1 Expedite the processing for minor revisions of instrument flight procedures       11/01/2014
Procedure Design Automation
 2 Approve the electronic transfer of procedure design information.                  3/30/2015
 3 Implement a "Direct to quality assurance" process for procedures                  1/02/2015
   developed using the automated system.
 4 Establish an abbreviated amendment process.                                       Completed
Database Standardization
 5 Establish a standardized set of databases and maintain data integrity.            Completed
 6 Provide access to, and mandate use of, a single set of data for all               9/30/2015
   instrument flight procedure service providers.
Data Transfers
 7 Allow electronic transfer of data.                                                9/30/2015
 8 Standardize software and data formats.                                            5/31/2015
 9 Standardize data precision, resolution, and rounding values.                      Completed
Focused Environmental Assessments
10 Provide guidance on a focused approach to environmental                           9/30/2014
   assessments and use of radar track data for noise analysis
11 Issue interim guidance for a focused approach to environmental                    Completed
   assessments.
12 Enhance environmental assessment screening tools to make them more                6/30/2014
   user-friendly, efficient, and comprehensive.
Environmental Policy
13 Standardize management and environmental specialist training.                     5/30/2014
14 Modify guidance to define responsible federal officials for environmental work.   Completed
Criteria
15 Designate the United States Instrument Flight Procedures Panel as the focal       Completed
   point for criteria changes and new requests.
Safety Management System Policy
16 Standardize the Safety Management System process.                                 Completed
17 Provide interim guidance for Safety Risk Management compliance for                Completed
   instrument flight procedure development and implementation.
Web Portal
18 Establish and implement a Web-based request and access portal.                    9/30/2014
19 Amend guidance to define life cycle policy for instrument flight                  Completed
   procedure development.
20 Develop an outreach/communication plan to educate users on use of the             9/30/2015
   instrument flight procedure portal.
21 Establish a W eb-based operations approval portal                                 6/01/2015




Exhibit C. N AV Lean Issue Areas and Recommendations
                                                              22


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Robin Koch                              Program Director

Coletta Treakle                         Project Manager

James Ovelmen                           Senior Analyst

Kimberly Leading                        Senior Auditor

Audre Azuolas                           Writer/Editor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician




Exhibit D. Major Contributors to This Report
